TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




           There Were Significant Limitations in Phase 1 of the
              Facilitated Self-Assistance Research Project



                                          March 10, 2009

                              Reference Number: 2009-40-047




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
                          Revenue Service without the permission of the TIGTA.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 10, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – There Were Significant Limitations in Phase 1 of
                               the Facilitated Self-Assistance Research Project (Audit # 200840013)

 This report presents the results of our review to determine whether the Facilitated
 Self-Assistance Research Project (FSRP) structure and methodology were sound and included
 adequate performance measures and milestones for successful implementation. This audit was
 conducted as part of our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 The FSRP provides taxpayers with an opportunity, with assistance from a Taxpayer Assistance
 Center (TAC or Center)1 employee, to help themselves to Internal Revenue Service (IRS)
 services through the use of a computer with access to IRS.gov.2 However, because of
 inconsistent data collection, a small sample size, and low survey response rates during the FSRP
 Phase 1,3 there were serious limitations on the data collected. The reliability of the FSRP data
 was also compromised, and there was inadequate support and data to measure the effectiveness
 of the FSRP. Therefore, we could not determine whether facilitated self-assistance is an
 effective and efficient means of providing customer service and a viable solution to reduce
 taxpayer wait times.




 1
   An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
 taxpayers face to face.
 2
   The IRS public Internet site.
 3
   Phase 1 of the FSRP was the data collection period of March 10 to April 15, 2008.
                            There Were Significant Limitations in Phase 1 of the
                               Facilitated Self-Assistance Research Project




Synopsis
The Wage and Investment Division, Planning, Research, and Analysis (Research) function,
reported on September 8, 2008, that inconsistent data collection, a small sample size, and low
survey response rates during the FSRP imposed serious limitations on the data collected.
Therefore, the extent to which facilitated self-assistance is an effective and efficient means of
providing customer service at the 15 TACs selected for Phase 1 during the 2008 Filing Season
could not be determined. Nevertheless, the FSRP is being expanded to an additional 35 TACs
for the 2009 Filing Season before the IRS has ensured that all limitations have been addressed.
The reliability of FSRP data was also compromised due to the number and complexities of
taxpayer surveys. The FSRP includes five surveys—four screening surveys administered
face to face with the data captured by commercial software and an exit survey administered
online to computer users and by paper to toll-free telephone users. Revising or eliminating
surveys could help improve participation in the FSRP.
Although one of the ultimate goals of the FSRP is to provide self-assistance and eliminate the
need for contact with an IRS employee, funding does not include printers for each
FSRP terminal.4 Instead, FSRP participants are required to see an IRS employee to obtain
printed copies of any documents they print from the terminals, which could be forms or their tax
returns. In addition, FSRP terminals are only offered at times when TAC employees conduct the
surveys. Allowing taxpayers to use the FSRP terminals at all times would benefit both taxpayers
and the IRS. Taxpayers could use the terminals while waiting for an assistor or instead of an
assistor.
The IRS has also been unable to provide sufficient support for the methodology used to select
FSRP services or the TACs. The IRS continues to offer the same 11 services even though some
have not been accessed by taxpayers. The IRS did not conduct additional analysis to determine
whether service tasks should remain the same. Further, there was no support to show why access
to all of IRS.gov is not offered in the FSRP. IRS officials stated they did not conduct any
additional analysis because they believed the insufficiency of the data negated any benefit from
additional analysis.
Although the IRS provided documentation showing the criteria required for the Centers
participating in Phase 1, no support was provided to show that the 15 TACs actually selected by
the Area Office5 directors met all the criteria, and if they did not meet the criteria, why they did
not. In addition, three of the Centers chosen are located in areas where a significant percentage
of the population speaks Spanish as their first language, even though one of the criteria of the


4
 The terms “terminal” and “workstation” are used interchangeably throughout the report.
5
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                                      2
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



FSRP, which is only offered in English, was that selected participants not have any language
barriers. Without sufficient support for the methodologies used in the FSRP, the IRS cannot
appropriately analyze the results and establish performance measures.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, should 1) not expand
the FSRP before all data collection issues have been corrected and sufficient data are collected to
ensure the FSRP can be accurately measured and the data are used to make sound business
decisions, 2) revise and/or eliminate surveys to reduce burden and encourage participation,
3) conduct a cost analysis of either providing a printer dedicated to each FSRP terminal or using
a facilitator who can quickly provide printed materials to taxpayers, 4) ensure all decisions and
processes are documented and are properly managed and maintained so all transactions and other
significant events are readily available for analysis, 5) consider expanding the criteria for
participation in the FSRP to all activities on IRS.gov to maximize the number of taxpayers
eligible to participate and analyze IRS.gov data to determine the webpages most often visited,
and 6) conduct testing at a number of TACs to determine the feasibility and benefit of providing
the terminals for taxpayers’ use at all times.

Response
The IRS agreed with recommendations 2, 3, and 4, disagreed with recommendations 1 and 6, and
partially agreed with recommendation 5. The IRS agreed to revise the surveys to reduce burden
and encourage participation. It has already conducted a cost analysis and will use facilitators to
quickly provide printed materials to taxpayers, and it also will ensure that all decisions and
processes are documented.
IRS management disagreed that the FSRP should not be expanded. The Field Assistance Office
received additional funding early in Fiscal Year 2008 for the expansion of the FSRP. The
additional 35 TACs will increase the volume of data collected, further mitigate any limitations of
the sampling frame, and ultimately permit better assessment of the FSRP.
The IRS agrees in part with recommendation 5. It agrees to consider the analysis of IRS.gov
data to determine the webpages most often visited by taxpayers and compare those to the
services provided by the TACs. However, the IRS does not agree to expand the criteria for
participation in the FSRP to all activities on IRS.gov to maximize the number of taxpayers
eligible to participate. Expanding the criteria to all activities on IRS.gov would require
expanding the eligibility questions to include hundreds of possible responses.
Finally, the IRS does not agree to conduct additional testing to determine the feasibility and
benefit of providing the terminals for taxpayers to use at all times. The Field Assistance Office
efforts will be focused on determining whether implementation of the FSRP is in the best interest
                                                                                                  3
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



of the taxpayers and the IRS. Management’s complete response to the draft report is included as
Appendix V.

Office of Audit Comment
We believe expanding the project to 50 TACs was premature and that data collection issues
should have been corrected before the Project was expanded. This is particularly true because
the data collection was not successful with the original 15 TACs.
Additionally, we believe the research phase is the opportune time to experiment and test different
methods and/or theories, such as a making a terminal available for taxpayers at all times.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Michael E.
McKenney, Assistant Inspector General for Audit (Returns Processing and Account Services), at
(202) 622-5916.




                                                                                                4
                               There Were Significant Limitations in Phase 1 of the
                                  Facilitated Self-Assistance Research Project




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          The Internal Revenue Service Determined There Were
          Significant Limitations in Phase 1 of the Facilitated
          Self-Assistance Research Project..................................................................Page 6
                    Recommendation 1:........................................................Page 8

          Burdensome Surveys Could Impede the Success of
          the Facilitated Self-Assistance Research Project..........................................Page 8
                    Recommendations 2 and 3: ..............................................Page 13

          Performance Measures Could Not Be Established and Facilitated
          Self-Assistance Research Project Results Could Not Be Assessed ..............Page 13
                    Recommendations 4 through 6:.........................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Facilitated Self-Assistance Research Project Surveys.........Page 21
          Appendix V – Management’s Response to the Draft Report .......................Page 22
       There Were Significant Limitations in Phase 1 of the
          Facilitated Self-Assistance Research Project




                 Abbreviations

FSRP       Facilitated Self-Assistance Research Project
IRS        Internal Revenue Service
TAC        Taxpayer Assistance Center
                           There Were Significant Limitations in Phase 1 of the
                              Facilitated Self-Assistance Research Project




                                            Background

In Fiscal Year 2006, the Internal Revenue Service (IRS) began a 5-year strategy, called the
Taxpayer Assistance Blueprint, to improve taxpayer service. The vision for future IRS service
                               delivery includes initiatives designed to enhance taxpayer
                               services—many of which will help move the IRS closer to
                               providing many of the services now available in the private
                               sector. One of these service delivery initiatives is to move
                               taxpayers from expensive face-to-face services at the local IRS
                               offices, called Taxpayer Assistance Centers (TAC or Center),1 to
                               less costly and more efficient self-assistance service. The IRS
                               expects this move will ultimately increase compliance and reduce
                               taxpayer burden.
                                    Research and analysis conducted during the development of the
The TACs offer                      Taxpayer Assistance Blueprint found there is greater taxpayer
face-to-face assistance.            value in securing forms and publications through the Internet than
                                    through any other channel. It also established that increasing the
The IRS provides taxpayers
the option of obtaining
                                    percentage of tax law questions addressed through the IRS’ public
face-to-face assistance at          Internet site, IRS.gov, and decreasing the percentage addressed
401 TACs nationwide. The            through face-to-face interactions would allow the IRS to gain
IRS suggests taxpayers visit        efficiencies and increase its overall capacity to serve taxpayers.
the Centers when they have
complex tax issues, need to         Overall, between 42 percent and 72 percent of TAC users reported
resolve tax problems relating       a willingness to use IRS.gov for at least 1 activity. In addition, a
to their tax accounts, have         2006 IRS Oversight Board survey 2 indicated that 42 percent of
questions about how the tax
law applies to their individual     TAC users would consider using the IRS web site instead of
income tax returns, or feel         visiting a Center. The Planning, Research, and Analysis
more comfortable talking            (Research) function also suggested that TAC users may be
with someone in person.             unaware of other IRS service channels.
Based on these findings, the Taxpayer Assistance Blueprint included an initiative called the
Facilitated Self-Assistance Model. Implementation of the Facilitated Self-Assistance Model was
expected to provide more convenient service alternatives for taxpayers and free up limited staff
resources to focus on providing more complex services best delivered face to face. On


1
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
2
  Internal Revenue Service Oversight Board Taxpayer Customer Service and Channel Preference Survey,
November 2006.
                                                                                                           Page 1
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



September 29, 2006, IRS executives approved a Facilitated Self-Assistance Research Project
(FSRP or Project) to begin the migration of those taxpayers who have indicated the willingness
to use alternative service channels.
The FSRP is being implemented by two IRS Wage and Investment Division offices or functions:
1) the Field Assistance Office responsible for overseeing the TAC Program, and 2) the Research
function. There are two main research questions that guide the Project.
   1. Are TAC visitors willing to use self-serve computer workstations or telephones in the
      TACs to accomplish certain service tasks?
   2. What are the estimated non-monetary costs and benefits of implementing these service
      options at the TACs from both the taxpayer and IRS perspectives?
The Research function developed nine additional questions to help address taxpayers’ overall
willingness to use facilitated self-assistance as well as to help assess the costs and benefits
(e.g., taxpayer burden). A comparison of the benefits and limitations of facilitated
self-assistance compared to other service channels can help determine the relative value of this
service offering.
The FSRP was set up to be a self-help service, with guidance available. It provides taxpayers a
computer with IRS.gov access, a telephone with access to the IRS toll-free telephone lines, and
the opportunity to help themselves to IRS services, with a TAC employee nearby to provide
guidance. Traditional assistance is to remain an option for any TAC customer who prefers
face-to-face service.
Figure 1 shows the 15 TACs selected by the Taxpayer Assistance Blueprint TAC team using the
following criteria: size (determined by number of technical employees), information technology
capabilities, geographic distribution, and the TAC’s capacity to hold computer terminals.




                                                                                           Page 2
                           There Were Significant Limitations in Phase 1 of the
                              Facilitated Self-Assistance Research Project



                                   Figure 1: The Initial 15 Centers

                   Small                        Medium                      Large
           Huntsville, Alabama               Mobile, Alabama        Birmingham, Alabama
           Springfield, Illinois             Buffalo, New York      San Diego, California
           Binghamton, New York              Houston, Texas         Santa Ana, California
           Greenville, North Carolina                               Chicago Ridge, Illinois
           Lubbock, Texas                                           Portland, Oregon
                                                                    Philadelphia, Pennsylvania
                                                                    San Antonio, Texas
                                         3
          Source: FSRP Research Report.

The 15 TACs were selected for an initial small-scale FSRP implementation, originally planned
for the 2007 Filing Season but postponed until late in Calendar Year 2007 to give the FSRP team
additional time to design and fully develop a system that would meet both customer and business
needs. Deployment of these computer terminals was completed by the end of October 2007.
Participation in the FSRP is currently limited to individuals who are capable of using computers
and have no language barriers since the system is available only in English. The Field
Assistance Office selected 11 services, based on all available services. Figure 2 shows the
11 FSRP services.




3
  Facilitated Self-Assistance Research Project Research Report, Project # 7-07-03-2-008N, Taxpayer Needs,
Preferences and Burden, W&I Planning, Research, and Analysis, issued September 8, 2008. W&I = Wage and
Investment.
                                                                                                      Page 3
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



                               Figure 2: The 11 FSRP Services
   1. Alternative Minimum Tax Assistant        The Alternative Minimum Tax Assistant is intended to
                                               provide a simple test for taxpayers who fill out their tax
                                               returns without using software to determine whether they
                                               may be subject to the Alternative Minimum Tax.
   2. Copy of Tax Return Information–          Taxpayers can obtain a transcript by calling
      Telephone Option Only                    (800) 829-1040. These transcripts may be acceptable
                                               substitutes for an actual copy of the return for purposes
                                               such as student loans and mortgages.
   3. Earned Income Tax Credit Assistant       The Earned Income Tax Credit is a credit for some
                                               people who work. Taxpayers determine eligibility by
                                               answering questions and providing income information.
   4. Electronic Filing Tax Payment System     Businesses and individuals can pay all their Federal taxes
                                               using the Electronic Filing Tax Payment System.
   5. Employee Identification Number           The taxpayer gets an Employer Identification Number
      Application                              immediately and can download, save, and print an
                                               Employer Identification Number confirmation notice.
   6. Forms and Publications                   This is the IRS forms and publications resource page.
                                               The links provide methods to access and acquire both
                                               electronic and print copies.
   7. Online Installment Agreements            Individuals who owe $25,000 or less can use this
                                               application to request a payment agreement.
   8. Tax Law Questions                        Taxpayers can get answers to many tax questions by
                                               answering a series of simple online questions.
   9. Tax Return Preparation and Electronic    The IRS advertises Free File as the fast, easy, and free
      Filing Using the IRS Free File Program   way to file Federal income taxes if taxpayers meet the
                                               criteria of one of the Free File Program providers.
   10. Tax Withholding Calculator              This helps taxpayers who are employees ensure they do
                                               not have too much or too little income tax withheld from
                                               their pay.
   11. Where’s My Refund                       Taxpayers can track their refunds through this secure
                                               web site.
  Source: FSRP Research Report.

Data were collected from March 10 to April 15, 2008 (hereafter referred to as Phase 1 of the
FSRP). The Research function issued a report on September 8, 2008, stating that data collection
issues limited the analyses for the Project, including a reduced data collection time period,
nonrandom Center selection, software problems, and variations in research protocol among
Centers.
This review was performed at the IRS Wage and Investment Division Field Assistance Office
and Research function in Atlanta, Georgia, and in 15 TACs located nationwide during the period
May through October 2008 (see Figure 1 for a list of the 15 TACs). We conducted this
performance audit in accordance with generally accepted government auditing standards. Those

                                                                                               Page 4
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Although we conducted this performance audit in accordance with
generally accepted government auditing standards, we encountered delays of more than 3 months
in obtaining information required to meet our objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                           Page 5
                            There Were Significant Limitations in Phase 1 of the
                               Facilitated Self-Assistance Research Project




                                       Results of Review

The Internal Revenue Service Determined There Were Significant
Limitations in Phase 1 of the Facilitated Self-Assistance Research
Project
The Research function reported on September 8, 2008, that inconsistent data collection, a small
sample size, and low survey response rates during the FSRP imposed serious limitations on the
data collected. Therefore, the extent to which facilitated self-assistance is an effective and
efficient means of providing customer service could not be determined. Nevertheless, the FSRP
is being expanded to an additional 35 Centers (hereafter referred to as Phase 2 of the FSRP) for
the 2009 Filing Season before the IRS has ensured that all
limitations have been addressed.
The FSRP appears to be a viable solution in assisting the
taxpayers visiting the Centers. The Project is being marketed in
the TACs as a “no waiting in line option” for assistance. Banks,
airlines, and other service industries have added similar
customer workstations to both ease waiting lines and to shorten
time for customer assistance. The FSRP also has the advantage
of introducing taxpayers to IRS.gov so that future inquiries and                 The FSRP Phase 1 was
                                                                                 conducted at 15 TACs and
actions can be handled without travel to a TAC. However,                         data were collected from
despite IRS efforts to implement the FSRP and manage                             March 10 to April 15, 2008.
taxpayer wait time and limit burden, IRS employees often
experienced high stress levels when they believed they had                       Almost 34,000 contacts were
insufficient time to administer the survey process. Taxpayers                    recorded at the 15 TACs
                                                                                 during this time period.
also experienced long wait times.                                                Participation was limited to
                                                                                 individuals who were capable
The Research function reported numerous limitations                              of using computers, had no
on the data collected                                                            language barriers, and were at
                                                                                 the TACs for 1 of the 11 FSRP
The Project was implemented using current IRS equipment and                      services. Only 2 percent of the
staffing; therefore, costs were minimized. The FSRP TACs                         eligible TAC visitors were
were selected by the Field Assistance Area Office4 directors.                    willing and able to use the
                                                                                 FSRP terminals during this
Center employees conducting the surveys determined taxpayer
                                                                                 time period.
eligibility. The survey data included results from five surveys

4
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues
                                                                                                             Page 6
                             There Were Significant Limitations in Phase 1 of the
                                Facilitated Self-Assistance Research Project



(four screening and one exit survey) and observations at five FSRP Centers.
The Research function’s report identified the following limitations:
      •    Software problems and a reduced data collection time period. Due to difficulties with the
           computer software applications used to collect survey data, the data collection period was
           limited to a 5-week period (March 10 through April 15, 2008) at the end of the
           2008 Filing Season, instead of collecting data throughout the entire filing season.5
      •    Nonrandom Center selection. The 15 FSRP Centers were not randomly selected and
           analyses performed on data from these Centers are only descriptive of those Centers and
           cannot be used to infer what might happen in other Centers.
      •    Variations in research protocol. Field observations uncovered variations in the
           administration of the FSRP research protocol, including employees not offering the
           survey and/or participation in the Project.
Based on these findings, the Research function recommended that the Field Assistance Office
1) follow the research protocol consistently across Centers and perform and submit a weekly
quality review of FSRP data collection and project administration, 2) make the FSRP process
less cumbersome by improving TAC employee familiarity with scripts, increasing interpersonal
interactions with participants, 3) provide appropriate training on the FSRP and on how to use the
survey application to all employees who are involved with administering the FSRP, and
4) conduct additional research on interesting findings presented in the report.
In addition, the Field Assistance Office and the Research function met and documented lessons
learned from the 2008 Filing Season and agreed to an action plan for Fiscal Year 2009. The
proposed actions included a recommendation to remove the telephone option from the FSRP, to
enhance employee engagement and training, and to reassess the services offered by the FSRP.

Additional funding has allowed the project to be expanded to 50 Centers
The FSRP report states that the Field Assistance Office received additional Fiscal Year 2008
funding for the Project and will continue administering the FSRP for another year. The funding
allowed the Field Assistance Office to add 35 FSRP Centers for a total of 50 Centers. The
expansion will increase the difficulty of ensuring that the Project is administered consistently
across all Centers. The Field Assistance Office stated that it has provided additional training to
employees and is confident that expanding the Project at this time is viable. Moreover, the
Research function believes that expanding the FSRP to 50 Centers will help ensure that it will
collect sufficient data to draw conclusions on the success of the Project.




5
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 7
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



To assess the Project, the Field Assistance Office developed action standards, including target
achievement levels or decision points, for select primary research questions. One of the
5 action standards is that more than 50 percent of eligible taxpayers choose to use the FSRP
terminals. Phase 1 results showed that only 31 percent of eligible taxpayers chose to use the
FSRP.
Phase 2 is being conducted during the 2009 Filing Season. The IRS predicts that it will have a
busier filing season with more taxpayer contacts. Although the Research function made
recommendations and the Field Assistance Office has taken action on the recommendations,
there is no current data to ensure that the corrective actions have all been implemented. Because
the IRS could not operate the FSRP in 15 TACs effectively, we believe the FSRP should not be
expanded.
We are concerned that expanding the project to 50 Centers is premature and that data collection
issues should be corrected before the Project is expanded. This is particularly true because the
data collection was not successful with the original 15 Centers.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should not expand
the FSRP before all data collection issues have been corrected and sufficient data are collected to
ensure the Project can be accurately measured and the data are used to make sound business
decisions.
       Management’s Response: The IRS does not agree with this recommendation. The
       Field Assistance Office received additional funding early in Fiscal Year 2008 for the
       expansion of the FSRP. The additional 35 Centers will increase the volume of data
       collected, further mitigate any limitations of the sampling frame, and ultimately permit
       better assessment of the FSRP. Deployment of the additional Centers began
       August 18, 2008, and is now complete.
       Office of Audit Comment: We believe expanding the project to 50 Centers was
       premature and that data collection issues should have been corrected before the Project
       was expanded. This is particularly true because the data collection was not successful
       with the original 15 Centers.

Burdensome Surveys Could Impede the Success of the Facilitated
Self-Assistance Research Project
The reliability of the FSRP data was compromised due to the number and complexities of
taxpayer surveys. When developing surveys, agencies should demonstrate 1) the practical utility



                                                                                            Page 8
                         There Were Significant Limitations in Phase 1 of the
                            Facilitated Self-Assistance Research Project



of the collection of a survey and 2) the burden of the collection both in terms of hours and other
costs is justified.6 How well a survey is designed and conducted can lead to either more or less
variance or errors in results. Agencies designing and conducting surveys need to consider all the
potential sources of errors and plan to adequately prevent, measure, and adjust for them.
Without reliable survey information in Phase 1 of the FSRP, there is little justification for
expanding the Project to 50 Centers. There has been little change to the survey methodology and
design, and the burden to IRS employees and taxpayers remains mostly unchanged. In addition,
the TACs expect to have a higher volume of taxpayer traffic during the 2009 Filing Season.
The FSRP includes five surveys—four screening surveys administered face to face with the data
captured by commercial software and an exit survey administered online to computer users and
by paper to toll-free telephone users. Figure 3 shows the flow of the FSRP, including the
surveys. See Appendix IV for details of the surveys.




6
 Memorandum for the President’s Management Council, dated January 20, 2006, “Guidance on Agency Survey and
Statistical Information Collections.”
                                                                                                   Page 9
                                  There Were Significant Limitations in Phase 1 of the
                                     Facilitated Self-Assistance Research Project



                            Figure 3: Flowchart of the Taxpayer’s Actions
                                        When Using the FSRP
                                                                                                 Taxpayer Logs Into the
                   Taxpayer Enters                                                                   Terminal With
                      the TAC                             2. Explains the Study and
                                                                                                 Identification Number,
                                                             Requests Participation
                                              Yes,                                                 Completes Actions,
              1. Screener Determines if                   3. Conducts Intake Survey
                                           Taxpayer                                              Prints As Needed, and
                 Taxpayer Is Eligible                        (7 Questions)
                                           Is Eligible                                              Completes Online
                 (Criteria) and Capable                   4. Conducts Preparedness
                                                                                                       Exit Survey
                 (English-speaking and                       Survey (1-4 Questions), if
                                                                                                 (9 Questions-Optional)
                 Computer-experienced)                       Applicable
                 Eligibility Survey                       5. Prints Unique Identification #
                 (1-5 Questions)                             and Provides Basic
                                                             Instructions

                                                                                                         al
                                                                                          ves   to Termin
                                                                                illing, Mo
                                                                      ayer Is W
                                                             Yes, Taxp

                               Ta No
                                 xp ,                                                     Facilitator Provides
                        El Is N aye
                            ig    o r                                                      Printouts of Forms,
                         Is ible t                                                        Returns or Research
                       W No o r
                        ill t                                                                    Results
                           in
                              g
                                        Refusal Survey
                                         (9 Questions)
                                        Offered, and if                        Participation and
     Screener Determines Issue,             Taxpayer                            Demographic                      Planning, Research, and
          Assigns Category                   Agrees,                            Data Collected                      Analysis Function
         Code in Q-MATIC*                 the Screener
                                          Administers




               Taxpayer Waits for
               Personal Assistance
  Source: Treasury Inspector General for Tax Administration analysis of the FSRP and survey administration.
  *Q-MATIC is an on-line system available at selected major assistance centers to facilitate workload and resource
  distribution by screening and categorizing taxpayer needs at the point of registration.

As the FSRP is currently setup, a TAC employee (either a screener or a facilitator) must take the
following steps:
1) Ask four questions to determine if the service task is within the scope of the FSRP and if the
   taxpayer is able to participate (e.g., sufficient English language skills and physical abilities).
2) Explain the study and ask if the taxpayer is willing to participate.
The TAC employee must then:
3) Ask seven questions about demographics including the participant’s age, income level,
   language spoken in the home, gender, zip code, and prior methods used for issue resolution.
4) Conduct a preparedness survey of one to four questions to determine if those taxpayers who
   are eligible and willing to participate in the FSRP have the necessary materials and
   information with them to accomplish the service task.

                                                                                                                                     Page 10
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



5) Finally, print a unique identification number for the participant and provide basic
   instructions.
The employees are instructed to do the above for all taxpayers who enter the TACs and ask for
assistance. Even if eligible taxpayers refuse, the employees ask them to take a refusal survey and
if the taxpayers agree the screeners will then administer the survey. All responses are to be
entered into a computer as the taxpayers provide the responses.
The surveys add time to all taxpayers’ wait time.
Understandably, during busy times, TAC employees            Administering the surveys is time
are reluctant to ask taxpayers to participate in the       consuming and not always practical
survey since it affects taxpayers who are waiting in      for small or busy TACs, yet these are
line to be assisted. Over one-half of the taxpayers         the Centers that can most benefit
visiting a TAC have questions that do not meet                 from self-assistance options.
FSRP criteria, such as specific taxpayer account
issues.
Treasury Inspector General for Tax Administration auditors made anonymous visits to all
15 FSRP Centers during June through August 2008 and asked 2 questions at each Center; both
questions met FSRP criteria. Auditors were not offered the opportunity to participate in the
FSRP in 12 (80 percent) of the 15 Centers, even though the questions met FSRP criteria.
Discussions with TAC employees showed that employees felt pressure to administer the survey
while still providing good customer service. This created significant limitations in data
collection during Phase 1 because some employees chose not to ask taxpayers to participate and
in some cases employees manipulated the data to make it appear they were offering the survey
when they were not.
To address these concerns, the Field Assistance Office will provide additional training to its
TAC assistors, including how to manage the surveys. It will also emphasize the importance of
the FSRP and how it will help move taxpayers to use self-service for less complex issues,
allowing TAC assistors to serve more taxpayers efficiently and effectively. In addition, the Field
Assistance Office will emphasize to Center employees that they are able to suspend the Project
during busy times, when administering the surveys would significantly affect taxpayers’ wait
times.
Though these actions may address assistors’ reluctance to offer the FSRP when the TACs are
experiencing heavy traffic, it also affects the amount of data collected. Gathering a sufficient
amount of data was one of the main reasons the IRS expanded the number of FSRP Centers.
Further, busy times at the TACs provide an opportune time for taxpayers to use the
self-assistance options and allow the assistors to address more complex issues.




                                                                                            Page 11
                         There Were Significant Limitations in Phase 1 of the
                            Facilitated Self-Assistance Research Project



Revising or eliminating surveys could help improve participation in the FSRP
Collecting demographics on taxpayers who visit the TACs is invaluable, but is not practical
during busy times, which are opportune times to offer self-assistance options. Therefore,
revising or eliminating surveys could help increase FSRP participation.
Other methodologies that might be considered include:
    •   Having the assistors rather than the greeters/screeners offer the demographic survey.
    •   Eliminating the demographic survey and/or adding the questions to the exit survey.
    •   Not surveying every taxpayer and instead take a sample of taxpayers who enter the
        TACs.
Since it might be too late to change computer programming, survey results could be captured
using scannable forms.

Dedicating printers to each FSRP terminal would make the self-assistance option
more complete
Although one of the ultimate goals of the Taxpayer Assistance Blueprint’s Facilitated
Self-Assistance Model is to provide self-assistance and eliminate the need for contact with an
IRS employee, funding does not include printers for each FSRP terminal. Instead, FSRP
participants are required to see an IRS employee to obtain copies of documents they printed,
which could be forms or their tax returns.
As a result, during a recent visit to an FSRP TAC on another Treasury Inspector General for Tax
Administration audit,7 it took 30 minutes to obtain the forms needed when it could have taken
significantly less time. Our audit recommended that the Commissioner, Wage and Investment
Division, place printers near the FSRP terminals so taxpayers can retrieve printed forms and
publications without recontacting an IRS employee.
IRS management did not agree to place printers near the terminals so that taxpayers could
retrieve printed forms and publications. Printers are currently located in secure locations to
eliminate inadvertent disclosure of taxpayer information that could occur through the printing of
electronically filed tax returns with personally identifiable information.
The IRS stated that printers cost between $200 and $375, and cartridges for each printer cost
approximately $95.50. Other concerns over providing printers included:
    •   Desktop printers can require significant maintenance when more than one person uses
        them.

7
 Tax Forms and Publications Were Generally Obtainable, but the Time Required to Acquire Forms Could Be
Reduced (Reference Number 2008-30-166, dated September 15, 2008).
                                                                                                   Page 12
                           There Were Significant Limitations in Phase 1 of the
                              Facilitated Self-Assistance Research Project



    •   There is no assurance that the taxpayer would not leave printouts in the printer, causing
        disclosure issues.
Notwithstanding, most FSRP participants (about 70 percent) printed forms, publications, and tax
returns. Placing a printer by each FSRP terminal would allow for greater self-assistance and help
ensure privacy.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Revise and/or eliminate the surveys to reduce burden and encourage
participation.
        Managements Response: The IRS agreed with this recommendation to revise the
        surveys to reduce burden and encourage participation. The IRS recently completed
        revisions to the survey process to include modified questions. The preparedness survey
        has been reduced to two questions and is completed by employees during the screening
        process. These steps will reduce taxpayer burden and increase participation. It is
        anticipated that after the research phase of the FSRP, data collection will be significantly
        reduced and occur entirely within the exit survey.
Recommendation 3: Conduct a cost analysis of either providing a printer dedicated to each
FSRP terminal or using facilitators who can quickly provide printed materials to taxpayers.
        Management’s Response: The IRS agreed with this recommendation. The FSRP
        already includes utilizing a designated facilitator to provide printed material to the
        taxpayer. The IRS will continue to ensure facilitators provide printed material quickly to
        taxpayers. The additional cost of providing printers is not warranted due to the presence
        of a designated facilitator at each Center. Further, it was determined that there were
        unanswered security issues involved with the placement of additional printers.

Performance Measures Could Not Be Established and Facilitated
Self-Assistance Research Project Results Could Not Be Assessed
The IRS has been unable to provide sufficient support for the methodology used to select the
FSRP services or the TACs. The Government Performance and Results Act of 19938 directs
Federal Government agencies to focus on their missions and goals, how to achieve them, and
how to improve their program effectiveness and public accountability by promoting a new focus
on results, service quality, and customer satisfaction. Performance measures need to be based on


8
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 13
                         There Were Significant Limitations in Phase 1 of the
                            Facilitated Self-Assistance Research Project



program-related characteristics and performance data and must be sufficiently complete,
accurate, and consistent. Performance data must be used to improve organizational processes,
identify performance gaps, and set improvement goals.

FSRP services
The FSRP Research Report stated that during the planning stages the Field Assistance Office
selected 11 services to be offered at FSRP terminals. Further, these services were based on the
services available at that time. However, little support or documentation has been provided and,
therefore, we cannot determine whether these services were the best suited for the FSRP.
Figure 4 shows the 11 services within the scope of the FSRP, along with the number of inquiries
made by taxpayers using the FSRP terminals at the 15 TACs.
              Figure 4: Number of Inquires Made at the FSRP Terminals
                        from March 10 through April 15, 2008
                                                              Number
                                                                of
      Services                                               Inquiries      Percentage
      Forms and Publications                                    219             41.2%
      Free File                                                 158             29.7%
      Frequently Asked Tax Questions and Answers                 61             11.5%
      Employer Identification Number Application                 52              9.8%
      Copy of Your Tax Return Information                        16              3.0%
      Where's My Refund                                          14              2.6%
      Online Payment Agreement                                     9             1.7%
      Electronic Federal Tax Payment System                        2             0.4%
      Earned Income Tax Credit Assistant                           1             0.2%

      Alternative Minimum Tax Assistant for Individuals            0             0.0%

      IRS Withholding Calculator                                   0             0.0%
      Total                                                     532            100.1%*
     Source: FSRP Research Report.
     * Total sums to more than 100 percent due to rounding

The IRS had planned to offer the same 11 services even though some services such as the
Alternative Minimum Tax Assistant for Individuals and the IRS Withholding Calculator have not
been accessed. However, it now plans to remove these services. Nevertheless, there is no
support to show why access to all of IRS.gov is not offered in the FSRP. IRS officials stated that

                                                                                          Page 14
                        There Were Significant Limitations in Phase 1 of the
                           Facilitated Self-Assistance Research Project



they need to constrain the data for the Project, but plan to offer access to all IRS.gov once
self-assistance is fully implemented.
Not offering taxpayers complete access to IRS.gov service limits the number of FSRP
participants and ultimately the number of taxpayers who can be accommodated and use the
self-service option. IRS officials stated they did not conduct additional analysis because they
believed the insufficiency of the data negated the benefit of any additional analysis. Also, they
explained that the outside contractor for IRS.gov owns that data; therefore, it would cost the IRS
$10,000 to conduct that analysis. However, the IRS does collect data on IRS.gov visits and is
able to determine which webpages are visited. This has not been matched with those services
offered in the TACs.

FSRP terminals are offered only at times when the TAC employees conduct the
surveys
Some TACs were still offering the FSRP option in August 2008, although most were not. The
IRS has the means to capture all information and actions taken on FSRP terminals. Allowing
taxpayers to use the FSRP terminals at all times would benefit both taxpayers and the IRS.
Taxpayers could use the terminals while waiting for an assistor or instead of an assistor.
To track taxpayer contacts, a generic password could be used in place of the unique identification
number currently provided to FSRP participants. The IRS could ask the taxpayer to complete the
exit survey to capture some demographic information as well as customer satisfaction measures.
If the taxpayer chooses not to complete the survey or forgets to sign off, the computer could
automatically log off after a certain time with no activity.
IRS management explained that they want to avoid situations in which taxpayers not
participating in the Project are using the FSRP terminals while taxpayers willing to participate
are waiting to use the terminals. Nevertheless, this type situation simulates conditions that might
occur when self-assistance is fully implemented.

FSRP TACs
IRS analysts stated that the criteria for selecting the TACs for the Project were to select one
small, one medium, and one large Center in each of the five geographic areas. In addition, the
Centers should have certain information technology capabilities, including the capacity to hold
FSRP computer terminals. Each of the five Area Office directors was asked to choose three
TACs in his/her respective area.
Although the IRS provided documentation showing the criteria required for the Centers
participating in Phase 1, no support was provided to show that the 15 Centers actually selected
by the Area Office directors met all the criteria, and if they did not meet the criteria, why they
did not. In addition, three Centers chosen are located in areas where a significant percentage of
the population speaks Spanish as their first language, even though one of the criteria of the

                                                                                            Page 15
                       There Were Significant Limitations in Phase 1 of the
                          Facilitated Self-Assistance Research Project



FSRP-which is only offered in English–was that selected participants not have any language
barriers.
Before expanding to other Centers, the IRS should document why the services and TACs were
chosen so it can appropriately evaluate the data and make sound business decisions.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Ensure that all decisions and processes are documented and are properly
managed and maintained so all transactions and other significant events are readily available for
analysis.
       Managements Response: The IRS agreed with this recommendation. All decisions
       and processes are documented and now maintained on a SharePoint drive that was
       established to store critical program documents. A formal process will be established to
       secure written approval of critical program changes from the Director, Field Assistance
       Office.
Recommendation 5: Consider expanding the criteria for participation in the FSRP to all
activities on IRS.gov to maximize the number of taxpayers eligible to participate. In addition,
analysis of IRS.gov data should be conducted to determine the webpages most often visited by
taxpayers and compare those to the services provided by the TACs.
       Managements Response: The IRS agreed in part with this recommendation. It
       agrees to consider the analysis of IRS.gov data to determine the webpages most often
       visited by taxpayers and compare those to the services provided by the TACs. Any
       further implementation of the FSRP will include full consideration of expansion of
       services.
       The IRS does not agree to expand the criteria for participation in the FSRP to all
       activities on IRS.gov to maximize the number of taxpayers eligible to participate.
       Expanding the criteria to all activities on IRS.gov would require expanding the eligibility
       questions to include hundreds of possible responses. Adding the additional questions
       would be cumbersome and time consuming to administer during this phase of the project.
       The FSRP is a research project and, as such, controls are in place to allow for meaningful
       data collection and analysis.
Recommendation 6: Conduct testing at a number of the TACs to determine the feasibility
and benefit of providing the terminals for taxpayers’ use at all times.
       Managements Response: The IRS does not agree with this recommendation. Field
       Assistance Office efforts will be focused on determining whether implementation of the
       FSRP is in the best interest of the taxpayers and the IRS.

                                                                                          Page 16
               There Were Significant Limitations in Phase 1 of the
                  Facilitated Self-Assistance Research Project



Office of Audit Comment: The IRS’ concern is with changing the parameters of their
existing research plan to accommodate a different method of service delivery. We
believe the research phase is the opportune time to experiment and test different methods
and/or theories, such as a making a terminal available for taxpayers at all times.




                                                                                 Page 17
                           There Were Significant Limitations in Phase 1 of the
                              Facilitated Self-Assistance Research Project



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of our review was to determine whether the FSRP structure and
methodology are sound with adequate performance measures and milestones for successful
implementation. To accomplish our objective, we:
I.      Determined how the IRS is measuring the success of the FSRP and what measures the
        IRS is using to ensure that the FSRP is meeting IRS objectives and goals.
II.     Determined whether the IRS selection process for FSRP TACs1 was adequate.
III.    Determined whether the services offered by the FSRP were selected to maximize its use
        and ensure that the FSRP meets its objectives.
IV.     Determined whether FSRP use is tracked and monitored to determine whether the results
        are accurate and reliable and are adequate to measure its success.
V.      Determined whether TAC employees are following the methodology of the FSRP to
        ensure its success.
        A. Anonymously shopped all of the 15 FSRP TACs to determine whether FSRP service
           is offered.
        B. Interviewed TAC employees to determine why the TAC is not using the FSRP.
VI.     Identified the internal controls the IRS has to monitor the use of FSRP workstations to
        determine whether they are sufficient to provide valid results.
VII.    Determined whether taxpayers’ identities were protected when using FSRP workstations.




1
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                         Page 18
                      There Were Significant Limitations in Phase 1 of the
                         Facilitated Self-Assistance Research Project



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena M. Dietles, Audit Manager
Tracy K. Harper, Lead Auditor
Cynthia Dozier, Senior Auditor
Elizabeth A. Miller, Senior Auditor
Janice A. Murphy, Senior Auditor
Craig L. Pelletier, Senior Auditor
Jerome S Antoine, Auditor
Jean M. Bell, Auditor
Mary L. Keyes, Auditor
Nelva Usher, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                    Page 19
                      There Were Significant Limitations in Phase 1 of the
                         Facilitated Self-Assistance Research Project



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Planning, Research, and Analysis, Wage and Investment Division SE:W:S:R
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation, and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 20
                           There Were Significant Limitations in Phase 1 of the
                              Facilitated Self-Assistance Research Project



                                                                                           Appendix IV

             Facilitated Self-Assistance Research Project
                                Surveys

                                                                                 Method of       Optional or
        Survey                             Purpose
                                                                                 Collection       Required

    Eligibility    Determines whether the service task is within the            Face-to-Face      Required
                   scope of the FSRP and if the taxpayer is able to               Interview
                   participate (e.g., sufficient English language skills and
                   physical abilities).

    Intake         Gathers demographic information from taxpayers               Face-to-Face      Optional
                   willing to take the intake survey and/or participate in        Interview
                   the FSRP (i.e., participant’s age, income level,
                   language spoken in the home, gender, zip code, and
                   prior methods used for issue resolution).

    Refusal        Collects demographic data on taxpayers who refuse to         Face-to-Face      Optional
                   participate in the FSRP and seeks the reason(s) for            Interview
                   not participating in the FSRP.

    Preparedness   Determines whether those taxpayers who are eligible          Face-to-Face      Required
                   and willing to participate in the FSRP have the                Interview
                   necessary materials and information with them to
                   accomplish the service task.

    Exit           Asks taxpayers to report their perceived success in           Online (for      Optional
                   seeking service and their willingness to use IRS.gov        IRS.gov users);
                   for future service tasks, including:                          Paper (for
                           Reason for visit.                                     Toll-Free
                           Whether the answer to the question was               telephone
                            received/transaction was completed.                    users)
                           Ease/usefulness of finding information.
                           Plan to seek further assistance.
                           Method for seeking further service.
                           Past IRS resources used.
                           Use of IRS.gov in the future.
Source: FSRP Research Report.1


1
  Facilitated Self-Assistance Research Project Research Report, Project # 7-07-03-2-008N, Taxpayer Needs,
Preferences and Burden, W&I Planning, Research, and Analysis, issued September 8, 2008. W&I = Wage and
Investment.
                                                                                                     Page 21
       There Were Significant Limitations in Phase 1 of the
          Facilitated Self-Assistance Research Project



                                                     Appendix V

Management’s Response to the Draft Report




                                                              Page 22
There Were Significant Limitations in Phase 1 of the
   Facilitated Self-Assistance Research Project




                                                       Page 23
There Were Significant Limitations in Phase 1 of the
   Facilitated Self-Assistance Research Project




                                                       Page 24
There Were Significant Limitations in Phase 1 of the
   Facilitated Self-Assistance Research Project




                                                       Page 25
There Were Significant Limitations in Phase 1 of the
   Facilitated Self-Assistance Research Project




                                                       Page 26
There Were Significant Limitations in Phase 1 of the
   Facilitated Self-Assistance Research Project




                                                       Page 27
